<html>
<title> - AFGHANISTAN: ARE THE BRITISH COUNTERNARCOTICS EFFORTS GOING WOBBLY?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  AFGHANISTAN: ARE THE BRITISH COUNTERNARCOTICS EFFORTS GOING WOBBLY?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2004

                               __________

                           Serial No. 108-224

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-745                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                         Nicole Garrett, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 1, 2004....................................     1
Statement of:
    Charles, Robert B., Assistant Secretary of State for 
      International Narcotics and Law Enforcement Affairs........     9
Letters, statements, etc., submitted for the record by:
    Charles, Robert B., Assistant Secretary of State for 
      International Narcotics and Law Enforcement Affairs:
        Followup question and response...........................    24
        Prepared statement of....................................    14
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     7
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3

 
  AFGHANISTAN: ARE THE BRITISH COUNTERNARCOTICS EFFORTS GOING WOBBLY?

                              ----------                              


                        THURSDAY, APRIL 1, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:30 a.m. in 
room 2154, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the committee) presiding.
    Present: Representatives Souder, Cummings, and Clay.
    Staff present: Marc Wheat, staff director and chief 
counsel; Nicole Garrett, clerk; Tony Haywood, minority counsel; 
and Jean Gosa, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good morning, and I thank you all for coming. Our 
subcommittee continues its oversight work on the impact of 
Afghan opium poppy production and what impact it has on the 
global supply of heroin. Last year's Afghan opium poppy 
production was the second highest on record. According to data 
and maps provided to the subcommittee by a U.S. intelligence 
agency, Afghan opium poppy cultivation is soaring, and the 
estimates of hectares under cultivation are now approaching the 
highest level of past production. I am concerned, because over 
20,000 Americans die every year from drugs, and 7 percent to 10 
percent of heroin sold in the United States is traced to the 
Afghan region.
    The United Nations Office on Drugs and Crime [UNODC], has 
conducted annual opium poppy surveys in Afghanistan since 1994. 
The 2003 survey shows that Afghanistan again produced three-
quarters of the world's illicit opium last year, resulting in 
income to Afghan opium farmers and traffickers on the order of 
$2.3 billion, a sum equivalent to half the legitimate GDP of 
the country. The UNODC concluded that ``Out of this drug chest 
some provincial administrators and military commanders take a 
considerable share. Terrorists take a cut as well. The longer 
this happens, the greater the threat to security within the 
country and on its borders.''
    Today, we bring into focus a very time-sensitive concern 
that the British-led effort on eradication of opium poppy is 
stalled just as the opium harvesting season in the south of 
Afghanistan is upon us. Reportedly, the weather has been 
remarkably good for the growth of poppy, and therefore the 
harvest season is accelerating. The subcommittee has received 
disturbing reports that while our British allies were supposed 
to eradicate a targeted 12,000 acres of opium poppy, they are 
barely off the ground in Helmand and have done almost nothing 
in Nangarhar. According to our sources, there is dithering on 
agreement on how to measure what is actually being eradicated, 
which hampers accountability among the governments pledging 
counternarcotics resources.
    Let me be clear: if it is true that there is some degree of 
foot dragging by the British in this complex matter, the U.S. 
Department of Defense comes off far worse. Let me quote from 
our House Government Reform Committee's Views and Estimates on 
the Fiscal 2005 Budget of the United States, which was 
unanimously approved by the committee on February 26, 2004: Our 
British allies have identified many Afghan opium processing 
plants necessary to the heroin trade. Yet despite the financing 
of terrorists and other destabilizing elements from the drug 
trade, the Department of Defense does not view these as 
military targets. The committee urges in the strongest terms 
for the Department to reconsider, and will monitor this issue 
incident to its oversight activities on behalf of the public 
safety. Therefore, if the Department is unwilling or otherwise 
task saturated and unable to fulfill its authorizations, the 
committee would support the President's requested reduction 
with the provison that the funds be redistributed to other 
agencies capable of filling the void.
    Let me continue by saying this. I am tough on everyone 
working the difficult mission of counternarcotics in 
Afghanistan because the stakes are so high. I met with both the 
former King and President Karzai in Kabul just recently. I had 
previously met with the former King when he was in exile in 
Rome. Both told me and other Members of Congress who were there 
that elimination of the drug trade is vital to the future of 
Afghanistan. They also pointed out that it didn't used to be in 
Afghanistan years ago, that it was a very productive 
agricultural country prior to heroin.
    And when Mr. Cummings and I met with him in Rome, he made 
that very clear. He said, I don't want my country to go back 
and be an opium country. I want us to work with alternative 
development, to come up with other things. It would be a 
devastation for Afghanistan to go this direction.
    They agreed again on this last trip with the U.N. 
Assessment Office of Drugs and Crime, that there will be a 
palpable risk that Afghanistan will again turn into a failed 
state, this time in the hands of drug cartels and 
narcoterrorists. We owe it to the people of Afghanistan and the 
people of the United States and of Europe and around the world 
to make sure that this does not in fact happen.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T6745.001
    
    [GRAPHIC] [TIFF OMITTED] T6745.002
    
    [GRAPHIC] [TIFF OMITTED] T6745.003
    
    Mr. Souder. I now yield to the distinguished ranking 
member.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Chairman, just over a month ago, this subcommittee 
heard testimony concerning the rapid rise in production in 
Afghan opium and the state of international efforts to combat 
opium production in Afghanistan. The testimony received from 
DEA Administration Karen Tandy and Assistant Secretary of State 
Robert Charles, who appears again before us today, underscored 
the importance of coalition counter-drug efforts to the success 
of the broader reconstruction effort in Afghanistan.
    The testimony also revealed what an enormous challenge 
Afghanistan faces in terms of establishing a governmental 
presence and respect for the rule of law and how high the 
stakes are for curtailing the drug trade. As the Director of 
the U.N. Office on Drugs and Crime put it recently, Afghanistan 
is at a critical juncture. It could go either way. It could 
embrace democracy and the rule of law and prosper under it, or 
it could devolve into a lawless narcostate in which terrorist 
and extremist elements once again thrive.
    Clearly, Mr. Chairman, we cannot afford to allow the latter 
to take place. Given that opium harvesting season is imminent 
and Presidential elections in Afghanistan are on the near 
horizon, the next several weeks and months will be critical to 
Afghanistan's future. The links between the drug trade and 
factions seeking to destabilize the interim Karzai government 
and/or perpetrate international terrorism appear to be well 
established. Breaking those linkages is critical to the effort 
to provide for security and stability in Afghanistan and to 
eliminate what appears to be a key source of funding for 
terrorists and other groups hostile to democracy in and beyond 
Southwest Asia.
    Eradication of opium poppy is regarded by experts as a key 
component of coalition counterdrug efforts in Afghanistan. 
Thus, it is troubling to hear that on the verge of the 
harvesting season, the United Kingdom may not be equipped, 
literally speaking, to handle its share of the load in this 
area, despite being the lead nation on counter-drug efforts in 
Afghanistan.
    The subcommittee has not received much in the way of 
background on the particular issue of the British readiness to 
pursue eradication aggressively. Thus, I look forward to 
hearing the testimony of Assistant Secretary Charles, and hope 
that he can shed some light on the situation on the ground in 
Afghanistan as it relates to the United Kingdom's commitment 
and capacity to eradicate opium poppy in its areas of 
responsibility.
    With that, Mr. Chairman, I thank you and I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T6745.004

[GRAPHIC] [TIFF OMITTED] T6745.005

    Mr. Souder. Thanks. I want to add just a little bit further 
that several years ago, when I traveled with this subcommittee 
to England and we met with the different departments there in 
London as well as the intelligence there, they were very 
critical of our efforts in Afghanistan and our commitment on 
the heroin question and urged us to be more aggressive against 
our own Government in pushing them on, which we have been 
doing.
    At last year's InterParliamentarian conference that was 
held in Europe, one of the major discussions in addition to 
another prevention conference that Ambassador Sembler's wife, 
Betty Sembler, organized in Rome, UNODC directly criticized the 
United States for not being more aggressive on the heroin 
effort in Afghanistan. We need to be working together, and with 
our close allies, of which Britain is clearly our closest ally 
in the world right, and on this effort. They've been prompting 
us and we need to work together. I wanted to make sure I got 
that into the record.
    Also, the unusual title of today's hearing about, ``Are the 
British Counternarcotics Efforts Going Wobbly,'' I want to make 
sure people understand why we chose that title. When President 
Bush was presenting the Medal of Freedom to Margaret Thatcher, 
he used the story, he said, I called her to tell her we were 
fully intending to interdict Iraqi shipping, we were not going 
to let a single vessel heading for Oman enter the port down at 
Yemen without being stopped. She listened to my explanation, 
agreed with the decision and then added these words of caution, 
words that guided me through the Gulf crisis, words I'll never 
forget as long as I'm alive, remember, George, she said, this 
is not time to go wobbly.
    And that's very appropriate as we tackle this Afghan heroin 
question. We both need to be pushing hard.
    With that, I look forward to hearing more data on what's 
exactly happening on the ground over in Afghanistan from 
Assistant Secretary Charles. Thank you for coming this morning.

 STATEMENT OF ROBERT B. CHARLES, ASSISTANT SECRETARY OF STATE 
    FOR INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS

    Mr. Charles. Thank you, Mr. Chairman. And thank you, 
Congressman Cummings.
    I appreciate the opportunity to be here in front of you to 
testify on this topic and on the topics that orbit this topic. 
Your hearing today is extremely timely and could not be more 
important. I might note very briefly that today's Washington 
Post has an article on page A19, ``Afghans Asked for Economic 
Aid to Prevent Domination by Drug Trade,'' a critical telling 
signal of our times. And I just wanted to quote one statement 
from what was a very poignant plea yesterday.
    Mr. Souder. I'm sorry, I forgot a procedural matter that 
you're very well familiar with. I need to swear you in.
    Mr. Charles. Yes, sir.
    Mr. Souder. Please stand and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show you responded in the 
affirmative. Also let me take care quickly of the other two 
procedural things, I'm sorry. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered. What made me think of that is that we'll 
submit that article for the record.
    Sorry to interrupt.
    Mr. Charles. Not at all. Thank you, Mr. Chairman.
    I thought I might also just quote from President Karzai's 
quite poignant speech yesterday in Berlin. Many poignant lines 
in the speech, but perhaps the most powerful one was the quote, 
the fight against drugs is actually the fight for Afghanistan. 
And that relates of course to democracy, stability, rule of law 
and all the things we value, not to mention the impact here.
    Two opening thoughts before I go to my formal testimony. 
One is that while all seems quiet, I will always tell you the 
straight facts as you ask me to come before you, and I will 
respond as fully as I can in this open session to every 
question you ask. You have both been leaders in this area and I 
feel that my obligation very much to the U.S. Congress and 
people is to give you everything I can give you.
    While it is all quiet, this is crunch time in Afghanistan. 
The first crop is coming very rapidly. And if we don't react 
collectively, all those who wish to bring democracy the kind of 
hope that it has there, we will pay a price later if we don't 
react right now.
    The second thing I want to say is that what happens in 
Afghanistan directly affects us here. It affects us because the 
Afghan heroin goes directly to the world heroin market, but it 
also affects us because it feeds the extremists and the 
terrorists that have destabilized so much of the globe.
    So once again I'm grateful for the chance to be here. and 
for your steadfast leadership. I am here chiefly to update you 
on the status of the impending 2004 poppy crop and the 
eradication efforts that we are jointly undertaking in 
Afghanistan. There is no more urgent or fundamental issue than 
the drug situation, which left unchecked will become a cancer 
that spreads and undermines all that we otherwise are achieving 
in the areas of democracy, stability, anti-terrorism and rule 
of law.
    Opium is a source of literally billions of dollars, if you 
count it out, to extremists and criminal groups worldwide. As a 
result, it should go without saying that cutting down the opium 
supply is central to establishing a secure and stable democracy 
as well as winning the global war on terrorism. A chart I have 
here today shows the potential relationship of Afghan opium to 
some of the terrorist and extremist groups. I don't know if 
there's any way to put it up, but you have it in front of you 
at the very least. In fact, there are two charts, one is color 
coded, the other is a description of the four of the main 
extremist/terrorist groups in Afghanistan, the HIG, the 
Taliban, the IMU and Al-Qaeda. You'll see that one has a full 
description of the linkages and the other one has the various 
levels of linkage as we know them.
    Of course, terrorists don't carry cards. So the idea of 
having a card carrying terrorist of a various organization is 
always subject to review and rethinking. But the bottom line is 
that there are linkages that seem quite clear, and that's one 
of the reasons we're most concerned about the Afghan heroin.
    It's hard to imagine how any economic development program 
can be feasible if it ignores the fact that the IMF estimates 
how that as much as 50 percent of the GDP of Afghanistan is 
derived from narcotics, or the opium crop can yield up to 100 
percent more profit than the alternatives. Clearly, Afghan 
drugs affect Afghanistan and the progress of democracy there. 
But Afghan drugs also affect all consuming nations and dozens 
of countries on the drug trafficking routes. Afghan heroin 
presents a sobering domestic issue for our European allies, 
since 90 percent of the heroin in the European streets comes 
from Afghanistan.
    As Ronald Reagan was fond of pointing out, facts are 
stubborn things. Initial reports just in from the field 
indicate that we could be on a path for a significant surge. 
Some observers indicate perhaps as much as 50 to 100 percent 
growth in the overall 2004 crop. Those are troubling figures, 
because they give us an uptick from what was already the second 
largest production year last year.
    By these measurements, unless direct, effective and 
measurable action is taken immediately, we may be looking at 
well over 120,000 hectares, certainly in the range of 90,000 
hectares, of poppy cultivation this year. That would constitute 
a world record crop, empowering traffickers and the terrorists 
they feed, raising the stakes and vulnerability of the Afghan 
democracy, and raising the supply of heroin in the world 
market.
    Even more disturbing, these reports indicate that the clock 
is ticking faster than many anticipated, due partly to warmer 
than expected weather in southern Afghanistan, and I should say 
southern and eastern Afghanistan. You have before you a map 
which has been declassified, as in fact the other two charts 
are declassified. It shows that among the places where a great 
deal, in fact two of the breadbaskets, if you will, of heroin 
are Helmand and Nangarhar, and that in these locations and the 
others to the south, the weather is warmer now than was 
anticipated. In other words, there's been good weather and 
they're seeing as a result an earlier harvest.
    I have recently learned that the U.N. Office of Drugs and 
Crime expects that the unusually warm weather in southern 
Afghanistan will result in an early harvest, which in some 
provinces has already started. As you know, the U.K. is the 
designated lead on counternarcotics efforts in Afghanistan. Our 
two nations have worked very closely together with the Afghan 
government and our coalition partners to achieve a consensus on 
how best to combat the illicit drug economy in a free 
Afghanistan.
    Let me say unequivocally that we have no better ally on 
counterterrorism and counternarcotics in the world than the 
United Kingdom. The cooperation between our governments, our 
diplomatic services, our military forces, our intelligence 
agencies and our law enforcement agencies has never been 
greater and continues to yield innumerable successes in these 
areas. Some of these I can talk to you about in this setting, 
others I can't but I can talk to you about in another setting.
    With respect to counternarcotics efforts in Afghanistan in 
particular, we continue to work hand in hand to achieve our 
mutual goal of destroying the illicit drug economy in 
Afghanistan. It's a daunting task.
    In general, the support of overall counternarcotics program 
in Afghanistan, the United Kingdom is providing roughly 70 
million British pounds over a 3-year period. There is a 
typographical error I think in the text there, but it is over a 
3-year period. Their focus has been on drug law enforcement, 
capacity building and demand reduction. one program which has 
received significant results is the Afghan interdiction unit, 
whose efforts are strongly supported by the United Kingdom. 
Under the supervision of the Afghan Ministry of the interior, 
which is also quite dedicated, this special drug interdiction 
force is playing a crucial role as part of the wider Afghan law 
enforcement effort on illegal drugs.
    As the lead government on counternarcotics in Afghanistan, 
the United Kingdom has pledged approximately 2 million British 
pounds, approximately $3.6 million, for manual eradication by 
provincial Governors. The United Kingdom is integrally involved 
in the creation of what they call the central planning cell 
within the Afghan Ministry of the Interior to address 
eradication. The British have pledged to provide eradication 
targeting options directly to senior levels of the Afghan 
government and provincial Governors. The U.K. counternarcotics 
officers have also worked closely with INL officers to develop 
a phased eradication plan for the three key provinces. I 
mentioned before Helmand and Nangarhar. I mentioned also the 
third very big one, which is Badakhshan. And I'll talk more 
about the phased program if asked.
    Though it's too early to predict the level of success in 
our overall eradication effort and what we will ultimately get, 
we continue to work together to achieve significant results. 
Here I must pause. It would be inaccurate to say that we are in 
complete agreement on all aspects of the eradication effort or 
on the ways to achieve the essential, critical and mutual goal 
of eradicating a measurable and significant quantity of heroin 
poppies.
    For example, we believe that the current set of eradication 
targeting criteria, while designed with the best of intentions, 
may be overly restrictive. Criteria such as developing 
alternative development to be in place and a preoccupation with 
avoiding any possibility of resistance may restrict our ability 
to collectively reach these eradication goals. By current 
estimates, without targeting approximately 35,000 hectares for 
eradication, the Afghan-led, British supported phase I effort, 
combined with the Afghan-led U.S. supported phase II effort, 
will not effectively counter and deter the 2004 crop.
    We believe eradication of a significant portion of this 
target is achievable and in fact would be sufficient to deter 
future planting across the country. I know that Chairman Souder 
and Congressman Cummings have both been involved in efforts 
previously in other hemispheres, this hemisphere, for example, 
in which similar percentages of targeting have actually 
generated very significant results. So I think that it's clear 
that if we do what we set out to do, we can achieve the kinds 
of results that we all believe we need to.
    In addition, we firmly believe that it is the role of the 
British-led planning cell to provide the Afghan government with 
a comprehensive target list to determine, based on domestic 
considerations and concerns, what targets are suitable, and 
then aggressively support eradication in these areas. If 
Afghanistan's future matters, and it does, we cannot speak 
warmly of progress in eradication without the planning, blood, 
sweat and conviction that will make our words real.
    Since you have obviously also seen the worrisome phase I 
progress to date, and thus called this hearing, we would 
encourage the British Government to revisit the issue also of 
funding available to their program in support of the Governor-
led eradication. The window of opportunity for effective 
eradication in the two major opium producing provinces of 
Helmand and Nangarhar is fast closing. Substantial efforts must 
be made immediately if we are to begin genuinely deterring the 
expansion of the opium growth. Specifically, we are entering 
the first stage of the poppy harvest. The harvest begins in the 
southern provinces, and actually has already begun, in fact, 
and will continue in counter-clockwise pattern across the 
country, including in the northern provinces in September. 
Actually if you look at the current projections on whether it 
may even be August or July, possibly even as early as June.
    The U.K. financed, Governor-led eradication effort 
commenced just in one province this past weekend, and has 
reportedly been unfolding somewhat slowly. There is still time 
for it to unfold in a way that will make a direct, significant 
impact in these provinces.
    Speaking frankly, I think it is now important that we and 
the U.K. redouble our efforts and provide the necessary 
additional resources to achieving our mutual, critical and 
attainable goals. The climb is steep but the pace must be swift 
and our resolve must be unwavering. Indeed, it has to match 
President Karzai's words, again, I want to note that he says, 
the fight against drugs is the fight for Afghanistan.
    We are going to continue to work with our closest ally and 
together send a clear message, together, to traffickers that 
heroin has no place in Afghanistan. Mr. Chairman, I hope that 
on my next appearance I will be able to report that we are in 
fact accomplishing many of these common objectives. And I stand 
ready for questions.
    I did want to add one last footnote, because I know it's of 
extreme importance to you and Mr. Cummings and the rest of the 
subcommittee. This morning, or last night, I think in many ways 
because of the pressure that you have provided upon all of us, 
including my office, we did come into possession of what 
appears to be the frag, or the guidance, military guidance that 
will govern what our military does in Afghanistan. I believe it 
is unclassified. I think it's all unclassified. And I would 
like to be sure that you get a copy of that, if you don't 
already have one.
    I stand ready for questions.
    [The prepared statement of Mr. Charles follows:]

    [GRAPHIC] [TIFF OMITTED] T6745.006
    
    [GRAPHIC] [TIFF OMITTED] T6745.007
    
    [GRAPHIC] [TIFF OMITTED] T6745.008
    
    [GRAPHIC] [TIFF OMITTED] T6745.009
    
    [GRAPHIC] [TIFF OMITTED] T6745.010
    
    Mr. Souder. We will also insert any unclassified portions 
into the record.
    Let me start with just clarifying again just exactly what 
we're talking about today. You're saying that the poppy is 
coming to harvest, meaning it's ready to be cut by the people 
who are going to send it to the processor to ship to market. 
Now, it's already being processed and it's earlier than we 
expected.
    Mr. Charles. Yes, sir. In the southern portions of the 
country, southeastern.
    Mr. Souder. That is expected to continue to be early, as it 
moves to the north as well?
    Mr. Charles. Correct.
    Mr. Souder. And when you said the U.K. financed--well, let 
me ask you this question first. It's my understanding that the 
British have the overall lead in counternarcotics efforts in 
Afghanistan. They have particular responsibility for helping 
the Afghans in the Pashtun speaking areas, which would be the 
south, predominantly, the east, while the United States is 
supporting a major eradication effort in the Tajiki speaking 
north, where the harvest season begins probably around May.
    If there is minimal effort in the next few weeks at 
eradicating in the Pashtun speaking areas but a major effort 
then undertaken in the Tajiki speaking areas, wouldn't it be 
natural for the people of the north to think that there has 
been discrimination against their section where the Pashtuns 
are and the Pashtuns got off easy? Couldn't they blame 
President Karzai, who is in fact Pashtun?
    In other words, when the British don't move in this area, 
in the Pashtun area, how does that affect us in the north and 
our ability to follow through? How does it impact potentially 
the elections in Afghanistan if there is discrimination? And in 
fact, the British backing off could put us in a box or 
President Karzai in a box and the north as well.
    Mr. Charles. Yes, sir, let me address that with two 
thoughts. First, I want to make clear that the British have 
begun in the Helmand area. I think the main point again, to 
respond directly and honestly to what you have asked today of 
me, the main point is that we need to be more aggressive and we 
need to be more complete and we need to be more determined and 
we need to be more ambitious about addressing these two huge 
and significant producers of heroin poppy. So I don't want to 
say that it has not begun, and I think that's important.
    The second point is a significant overlay to the production 
issue by itself. You're absolutely right, these two provinces, 
Helmand and Nangarhar, are Pashtun majority and actually, the 
entire north basically, or the portions you've been talking 
about, Badakhshan, are Tajiki. So you do have what could 
seriously be a problem in terms of the sense that we have made 
a commitment to eradicate, and the United States takes over on 
May 1 the support of the central government in eradicating in 
Badakhshan. And actually probably in time beyond that at great 
numbers, thousands of hectares.
    If we have not been highly aggressive in the south in doing 
the same, I think the question could be raised, why not. And I 
think your point almost speaks for itself.
    Mr. Souder. When you say that they have begun, and that you 
believe they are proceeding slowly, do you believe they have 
adequate resources devoted to this to eradicate the crop before 
it's going to market? That's really two questions. One is, do 
they have adequate resources to do the eradication fast enough, 
and at the pace they're moving, will they get it eradicated, or 
is it going to get to market unless there is a change?
    Mr. Charles. The resources that the British have dedicated, 
as I understand it, to these regions, amounts to about $3.6 
million. It is certainly, I guess if you were asking me whether 
we both, both countries could use more money and that would 
have an effect, I think the answer is yes, we could use more, 
and yes, it would have an effect. My sense is that if there is 
still a window, that window remains open for us to become more 
aggressive and for the British support of the provincial 
Governors, who incidentally have to be brought along to this 
effort, but are being brought along, if there were more money 
available, it would probably move faster and it would probably 
also give us a better shot at creating the kind of deterrence 
that you have aptly described needs to be created.
    Mr. Souder. You said in your testimony that one of the 
problems here was that they believe the alternative development 
process needed to be in place before eradication. Could you 
clarify what precisely that means? All of us believe that 
alternative development is critical for Afghanistan. All of us 
realize we need to spend more money in that. The question is, 
do you have, what do you mean, do you mean that they are going 
to let the coca out if they don't have the alternative 
development in place. The coca is going to be cut down and 
processed and go to the streets of the United States and Europe 
if they don't have the alternative development in place?
    Mr. Charles. I think there are several layers of continuing 
discussion which probably need to be accelerated to a 
conclusion pretty rapidly on the ground in Afghanistan between 
the British and the United States. One of them does relate 
directly to the sequencing and the way in which alternative 
development or alternative incomes are made available. I think 
our position is that it would be valuable to have alternative 
incomes available at the time.
    It is also true, however, that vast majority of the Afghan 
cultivated land, in fact 92 percent of the Afghan cultivated 
land, without alternative development, I might add, is planted 
with wheat, that's the No. 1 crop. The No. 2 crop is barley, 
the No. 3 crop is corn. Only 8 percent actually of the overall 
crop of cultivated, not cultivatable but cultivated land, is 
heroin poppy.
    It appears that our point of disagreement, to some degree 
here, and I point to it very directly, is that we believe that 
if there are alternative income streams, but more importantly, 
if there is heroin poppy there, which needs to be eradicated, 
we shouldn't be picking and choosing, we shouldn't be delaying, 
we shouldn't be making it conditional upon providing an instant 
and available income stream.
    I would note that the 92 percent which are alternative 
crops, that's the free market doing its job. Where the 
invisible hand is creating in effect, corn seeds and fertilizer 
are available, so is wheat, so is barley. The bottom line is 
what we need to do is make sure that this heroin poppy crop is 
actually destroyed. And the key here again is that deterrence 
occurs not because you have put alternative development 
programs in place first, or simultaneously. It occurs because 
it is no longer economically feasible to go to this roughly 
twice as valuable crop to them, and why does that matter to us? 
It matters to us, Mr. Chairman, because if we allow this to go 
on for anything like another year or year and a half or two, 
what we will see is the institutionalization of Colombia-like 
cartels in this domain, where the traffickers coerce the 
farmers very, very vigorously to produce. That is what we are 
seeking hard to avoid. And frankly, that's what I think 
President Karzai has made very clear is his priority.
    So the short answer is, we do have a point of disagreement. 
We have time to resolve it, but we need to resolve it very 
quickly. And the point being that our priority should not be, 
it seems to me, some kind of misplaced sympathy for someone who 
will have to do a little more work, provide more resources 
ultimately for fertilizer and seed in order to grow an 
alternative crop, but rather to look at both the direct and 
indirect impact, the direct being destabilization of that 
government, the indirect being the destabilization of other 
governments and frankly the killing of many people through 
heroin in the rest of the world. We have to be direct and, this 
is a business that involves not looking away from the hard 
questions, but looking hard directly at them and resolving 
them. And in this case, heroin poppy eradication is a front and 
center problem that we need to just tackle.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. First of all, I want to thank you for all 
your hard work. I thank you for just being so candid with us. 
As you well know, we share many of your views with regard to 
trying to rid our world of illegal drugs. So I'm really glad 
that you would come at such short notice at our request.
    Can you tell me why it is, and you may have answered this 
when I left for a moment, why is it that production has gone up 
so high in such a short period of time? I think you said the 
production of opium has just skyrocketed. Is that because the 
country is in disarray or what?
    Mr. Charles. I think that two things are at work. One 
involves the rule of law and the other involves economics. The 
rule of law piece is that this is a country which is recovering 
from war. They had been dominated by a group that was shot 
through with terrorists, and frankly, they are a post-war, 
post-conflict environment in which it is still difficult out in 
the fields to be assured of stability and security.
    In that situation, criminal elements frankly have an 
opportunity to grow up. So the rule of law has to be properly 
established and addressed, and frankly, part of that is 
prosecuting bad guys, which they are doing, and frankly, the 
United Kingdom has also been very helpful on interdiction and 
on prosecution, law enforcement support in a number of ways. 
But the other part of it has to do with eradicating the crop 
which is in fact illegal.
    The second piece of that is purely economics. Survival is a 
day to day issue for the many Afghans. They can survive by 
growing wheat, they can survive by growing corn, they can 
survive by growing heroin poppy right now until we make it 
clear that the heroin poppy is not, and the Afghan government 
is able to with our help make it clear that the heroin poppy is 
not going to be a staple of their future economy.
    But what do they do right now? They get about $1 at the 
farm gate, if you will, for what commands about $100 on the 
streets of Paris or London. And therefore, they don't make very 
much money on this, the farmers. The people who make the money 
are the traffickers, who in turn are feeding a lot of the 
extremist groups that I have no chart that you have seen. The 
short answer again is that we are seeing what is the natural 
evolution of criminal organizations who, I would even say 
criminal individuals at this point, it has not been fully 
institutionalized, who are taking advantage of the average, 
everyday farmer. And some of it's forced, some of it is just 
survival.
    But what we have to do is make it crystal clear, there is 
such a thing as a rule of law and we have to be extremely 
supportive, both we and the British, of what the President, 
President Karzai and his team want to do. I have heard no more 
moving speeches in the last year than the speech he gave 
yesterday in Berlin, and frankly, the one that was also given 
by Minister of the Interior Jalali who departed from his 
prepared remarks to make it crystal clear that the drug 
problem, including right down to and very much the eradication 
issue, are central to the success of a democracy in 
Afghanistan.
    As you may have heard me say once before, because I think 
it's a good metaphor, you cannot build a castle that will last 
for any length of time on sand, and you cannot build a 
democracy that will last for any length of time on a heroin 
economy. So what we're seeing is the natural outgrowth of a 
war-torn country that is now seeking to get back on its feet 
with legitimate crops and legitimate economic inputs.
    Mr. Cummings. When you and Administrator Tandy were here 
not very long ago, you all talked about the training of police 
and just basically putting together the law enforcement 
apparatus to ensure that those involved in the drug trade would 
be arrested and hopefully prosecuted. Where are we with that 
right now? Have we made any progress? I know it was just about 
a month ago that you were here. But how are we moving with 
that?
    And talk about this whole idea of the urgency of this 
moment and exactly what time period do we have to act. And if 
you could have a wish list as to how to address this 50 percent 
more heroin going out into the market, what it is that we could 
do in the Congress. Because that's what this is all about. How 
do we take steps now to prevent drugs from flowing all over the 
world? And just listening to your testimony, it appears that we 
could possibly do something right now that would be far less 
expensive than allowing all of these drugs to flood the market 
and then for us to have to deal with its consequences, not only 
based upon the expenditure of funds, but the wasting away of 
human lives.
    So this is a critical moment from what I'm hearing from 
you. I want to know how critical and I want to know how long 
the moment is.
    Mr. Charles. Yes, sir. We are all reacting, of course, to 
the assessment that the season has come earlier and that we 
need to be very aggressive right now. Let me address each of 
your questions in turn, police, progress and wish list.
    Police. We have trained about 6,500 police right now, 
frankly, with German assistance, in Afghanistan. That is the 
beginning of an effort that will produce 20,000 police by July 
1 if not sooner. We are on track, we have the PERT charts, we 
watch it every day, we have seven academies, actually we have 
six up right now and we have two more on line coming. We have a 
very aggressive effort to be sure that everything that Minister 
Jalali and President Karzai need and want for purposes of 
stability, we are aggressively supporting.
    Congressional support has been absolutely essential to 
that, the bipartisan congressional support has been absolutely 
essential to the product that I'm trying to produce by 
supporting the government there. So we could say a lot more 
about security, but the answer is, since the last hearing when 
Administrator Tandy and I testified, we are on track and we are 
in fact producing more police every day. The capacity is 
actually rising in each of the schools and more schools are 
being opened.
    Point two, progress, and in particular, progress with 
respect to counternarcotics as a result of this and also a 
result of British participation and non-interdiction. There are 
some things, and I will just say it elliptically here that the 
British are doing to support the Afghan government and that we 
are doing which have a lot to do with interdiction, information 
sharing, intelligence sharing and taking down both terrorists 
and drug traffickers. Those particular efforts are highly 
successful. And you may want to get a brief from me or from 
others in the Federal Government about exactly what those are. 
But they are successful, and the mechanisms being used are 
successful.
    I would note that as an adjunct to that, in Badakhshan, for 
example, in January, there were seized and destroyed about 2 
tons of opium and heroin. Laboratories and equipment were 
destroyed and there were 11 arrests. Direct progress from what 
we're doing. In March, in Nangarhar, again, one of the three 
big provinces for these purposes, about 500 kilograms of heroin 
and 150 kilograms of opium were destroyed, 5 heroin producing 
laboratories were destroyed and a large quantity of weapons 
were seized. Several traffickers were arrested.
    At 4 p.m. yesterday, in fact, there was a dramatic 
takedown, and I'm hoping I have a copy of it here somewhere, 
which involved a number of laboratories and actually produced 
the kind of result that we all wished for on the interdiction 
front, a very direct apprehension of people and a number of 
arrests. I will get you a copy of that, I don't seem to have it 
right at my fingertips. But I will get you a copy of that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6745.011
    
    Mr. Charles. With respect to wish lists, I think I want 
divide it out into two different categories, if you will, of 
wish lists. What you are reacting to, the UNODC assessment that 
there is a dramatic uptick, that this is the first harvest, 
that we must not fail here, because ultimately if we fail here, 
the entire crop will be affected. The amount of heroin and of 
cultivation and of heroin that they have gotten from their 
cultivation will be dramatically and negatively affected if we 
do not right now, within a matter of the next week or two, 
become highly aggressive and the British in their lead position 
supporting the two provinces that we're talking about are not 
able to tackle with all of the various elements we've talked 
about already today, tackle it and get at it.
    I think that my wish list in the first instance would be, 
you've done it here, I guess, I guess it's not really, I don't 
wake up looking for opportunities to testify, but by calling me 
up here and asking me these questions, you have answered one 
question, you've helped to push this forward in a way that 
makes it clear that we have to, for example, we have to 
collectively go after the fully flowering poppy. We can't say, 
well, these farmers have put a lot of effort into the poppies, 
so let's let it go this time. There is no let it go this time. 
If there's a let it go this time, there may not be a next time.
    So that's why we have to be highly aggressive at taking out 
the fully flowering poppy. We have to say, yes, of course, we 
all want alternative development support. But we cannot make 
our eradication efforts conditional on pre-existing or 
parallel, the necessity of parallel development. We have to be 
in lockstep with each other, all of us, the United States 
working under the British lead, the British and the United 
States working with both the provincial Governors, who the 
British are chiefly leading with in phase I, and with the 
central government where the United States is leading for phase 
II which begins May 1st.
    So I would tick down through a list, if you will, of minor 
roadblocks or obstacles that I feel we are all guilty in effect 
for not having yet resolved, and we need to get those resolved 
and we need to get them resolved fast, because there isn't a 
lot of time.
    The last point I would say, you asked about resources. The 
truth is that if you look to 2005, sir, we will probably, I 
think the British and we probably could use twice the amount of 
money we have right now dedicated to eradication. As you know, 
the United States has dedicated just to eradication $40 million 
and $250 million to the overall effort including police and 
counternarcotics. But $40 million is going to be enough to help 
us in May, but by the time the clock ticks around again, we may 
very well need twice that amount of money. The same is probably 
true with the British effort.
    I think what you're really seeing is, I think you could 
help us by encouraging us, which you are doing, to be as 
aggressive as we can be in support of the Karzai government and 
the provinces, the provincial Governors. And you could 
encourage us, no doubt, by continuing to ask whether we could 
use more resources, which I think in this instance we probably 
in time will.
    Mr. Cummings. Just one other thing. One of the things that 
certainly, in reading your testimony, and it's certainly a 
concern for this Congress, is the link between the drug trade 
and terrorism. It seems to me that if there is a link, and I do 
believe that there is, the urgency becomes even more 
significant. The President has been very clear that terrorism 
is a major concern for all of us. And when you think about 
Osama bin Laden and Al-Qaeda and those folks who do these 
harmful acts all over the world, I'm sure Americans sit and ask 
the question, where does the money come from to do this stuff?
    And we get an answer in part from what's happening in 
Afghanistan and what we're talking about today. I just was 
curious, I know we have come to certain conclusions in the past 
that there is a link between the terrorism and this drug 
trading. As you move forward, are you seeing evidence more and 
more of that?
    Mr. Charles. Yes, sir, I am.
    Mr. Cummings. So you're thoroughly convinced that there is 
a direct link?
    Mr. Charles. Let me explain. Very often when people get on 
this topic, including me, we find ourselves being conclusory. 
We intuitively understand that terrorists need money and that 
bad guys spend time together and that somehow the linkages in 
places like Colombia where the ELN and the AUC are active, that 
it's sort of self evident. To a lot of people, I think it isn't 
self evident. And that leads to both understatement and 
overstatement of the problem. Let me tell you why I am 
convinced, particularly in this area.
    First, our intelligence does support, and I'd like to use 
the word linkage, because I think linkage gives us bread, those 
who say, well, do we have corroborating evidence, do we have 
wire taps, do we have card carrying members of one group also 
to be found with a card from another group in their same 
billfold. Well, no, very often you don't have the level of 
evidence that beyond a reasonable doubt would allow you in a 
court of law at a 99 percent certainty to achieve utter and 
complete overlap between the two.
    So let's talk about linkages and indications and very 
strong suggestions and anecdotal evidence. Again, you'll see 
much of this captured in the two charts that I've declassified, 
which I don't think have ever showed up in a newspaper, which 
are extremely relevant. And let me say that there are things 
happening right now that are changing and tightening that link. 
Let me give you some examples.
    In 2002, the efforts supported by the U.S. Congress of 
President Bush were extremely successful at squeezing or 
wringing the terrorist financing out of the banking system and 
out of institution to institution transfers. There was 
approximately $125 million of terrorist money taken immediately 
in that first year after September 11 out of the system. That's 
more than $125 million actually, because if you think about it, 
really those bank accounts were instant flow-throughs. They 
were channels, they were tubes through which the terrorists 
pumped lots of money from many sources, including drugs, but 
from many sources.
    What we did is put a grate down right in the middle and we 
knocked them backward in that way. In 2003, that effort 
continued and we pulled an additional $15 million, and Treasury 
and all the departments that have worked together on this out 
of that system. What did that do to the terrorist world? What 
it did was it obviously set them back, but it also pushed them 
to move value, because they need money for OPSEC, they need it 
for recruiting, they need it for operations, they need it for 
maintenance, they need it for execution, they need it for all 
the things they do. Some are high value, some are low value, 
but they need money.
    It moved them to three different areas right away. It moved 
them to something called alternative remittances, or ``huala,'' 
with which I know you're familiar, in which you have informal 
exchanges country to country. It moved them to commodities that 
are high value and easily transported and carry their value in 
low quantity, gold, diamonds, other what you'd call legitimate 
commodities but being traded for illegitimate purposes and for 
money laundering.
    The third thing it did is it pushed them into false 
receipts, trade falsification of documents between countries in 
particular. What's happened as a result of that? Well, in the 
last year in particular there has been a very highly aggressive 
follow-on strategy which has produced significant movement 
toward trade transparency, which in turn begins to wring the 
money out of those, we're not done, but wring the money out of 
those conduits.
    Where does that push the terrorists? It pushes them very 
naturally to high value, non-perishable, easily divisible, 
easily transferrable assets that are otherwise untracked. And 
what are two of the biggest ones? Heroin, which you can bury in 
the ground and come back weeks later and find exactly as you 
left it, high value, low quantity, and amphetamine type 
substances. So what I think you're seeing is a movement 
naturally, do we have rock solid, 99 percent certainty 
evidence? Of course not. But we have movement naturally, 
intuitively and objectively in that direction.
    Another thing that's happening is that they are realizing 
that in places like Colombia and Afghanistan that there is a 
high quantity of drug money available, and that's why we have 
to attack this with every ounce of effort and every sinew of 
our fiber to try to get after it.
    And the last thing I'll say is that in many ways, I've used 
the metaphor once before in writing, but I think it is true 
that if you wait to see the jaws, we spend time in my family 
sometimes up in the north Atlantic, if you wait to see the jaws 
of a shark, and we have seen them often, it is too late. You 
don't see the jaws of a shark, you see the fin. When you see 
the fin, you act. The fin is the drug money. The jaws are the 
terrorist acts that grow directly out of the financing that we 
permit them to have.
    Mr. Cummings. We're about to go out of session, so we have 
2 weeks that we won't even be here. So what is it that we can 
do, right here, right now? As I understand it, a decision, you 
said, is in the process of being made? Is that accurate?
    Mr. Charles. Let me say, sir, yes, but let me say where the 
decision is being made. My understanding is that both President 
Bush and Prime Minister Blair are in absolute synch on the 
significance of this issue and of attacking it with vigor. I 
don't think there's any sunlight between them. I don't think 
there's any sunlight between Secretary Powell and the foreign 
minister. I think that somewhere down in the chain, somewhere 
in our chain, somewhere in their chain, there is not yet full 
agreement on the significance. I know there is not yet full 
agreement, and you know from the documents that you've put in 
front of me that there is not yet full agreement on how urgent 
this is.
    My view is, it is urgent, you are right, the United Nations 
is right. My office and my effort has to be 150 percent to go 
after it now, but we do phase II, we are preparing for phase 
II. That's the May 1 launch, working with the central 
government to go after the north. The British are leading in 
the support of phase I, which is in the south.
    And I think one of the things that you can do and you are 
doing is you bring to my attention and to their attention that 
this is something that we cannot stutter step on, neither of 
us. We have to do everything in our power to get to immediate 
agreement and get to immediate execution. And I think we're 
willing to do that. I think we know that we have to do that, 
but your leadership and public effort to make us do that is 
doubly important.
    Mr. Cummings. Well, let me just send a message, if it 
helps, and thank you very much for your indulgence, Mr. 
Chairman, but I think this is such a critical moment. I hope 
that you will deliver, from this side of the aisle, and I'm 
sure the chairman can speak for his side of the aisle, is that 
we believe in the efficient and effective use of taxpayers' 
dollars. We also are very, very concerned about the eradication 
of illegal drugs, wherever they may be found.
    When you put those two together and you look at what's 
happening based on your testimony and what we have before us, 
it is only rational, logical and it just simply makes sense 
that we act with all deliberate speed to address this issue. 
Because doing otherwise simply allows those drugs to flood 
neighborhoods all over the world, and then we go against the 
very things that we preach over and over again, that is the 
effective, efficient use of taxpayers' dollars.
    I would ask you to deliver, from this side of the aisle, an 
urgent message that we must act at this critical moment, 
critical. And I do appreciate your testimony and hopefully we 
will save some lives, hopefully by acting immediately we will 
save some anguish and pain and suffering and we will save the 
taxpayers money so that we can then have more money in the long 
run to continue the efforts that we have been making in this 
regard.
    Mr. Charles. Yes, sir, I will deliver that message.
    Mr. Cummings. Thank you.
    Mr. Souder. Thanks. I want to cover a few more particular 
questions. If I can understand what you said, that you are 
saying that the British have a reluctance to eradicate heroin 
poppy as it's flowering, is that true or not? Is that the U.S. 
policy as well? Why would there be such a reluctance?
    Mr. Charles. First, I want to say again, I feel as though 
in many ways we're discussing the one room in the house where 
there is still a little clutter when the rest of the house is 
as neat and tidy as you would ever want it to be. These are our 
best allies in the world, Mr. Chairman.
    Mr. Souder. Well, as cleaning people, we're interested in 
the one room that might need cleaning. I've sponsored the 
resolution, praised Britain for what they've done, Tony Blair 
came to Congress, he's our hero for standing with us in many 
ways, and he's taken a lot of grief back home. The fact is, if 
we have a cluttered room, we're trying to look at the cluttered 
room.
    Mr. Charles. Yes, sir, and I think in this particular case, 
the clutter could grow elsewhere if we don't address it here.
    I guess I will say it this way. My understanding, I think 
it's the policy of the United States wherever we are to 
eradicate and when we set out to eradicate poppy fields, which 
in turn turn into opium and into heroin, we do not say, well, 
it's gotten to a point where they've put so much effort into 
it, we really hate to do that. That would be tantamount to 
saying, gosh, the trafficker is right on the steps of the bank, 
it really seems a shame to not let him make his deposit.
    The bottom line here is all of us are convinced, and I 
think everybody, frankly, I think the British and the United 
States, everybody is convinced that when you have the 
opportunity for maximum impact on the grower of heroin poppy 
you should go after it. I think probably somewhere down in the 
lower parts of our organizations is where the information comes 
back up to me that there is some, let's call it, absence of 
clarity, absence of commitment that we both share, that we are 
completely on board with the idea that even if we don't have 
alternative development right there at our fingertips for 
people who are having their crops destroyed, that we need to go 
ahead and do the act of destroying drugs which in turn will 
have a horrible ripple effect if we don't destroy them out 
across all the regions, not just Afghanistan but trafficking 
routes and into London itself and frankly into the United 
States. Some of these drugs make it here, too.
    So I think that what I was expressing to you is that it has 
come back to me that there is maybe just an absence of 
agreement on this point, and that I wanted to let you know that 
my conviction is that wherever and however there is a crop 
which has gotten to maturity, it's my conviction that we do not 
stop, it is our position that you don't stop eradicating 
because for some reason it would be inconvenient or might have 
a disproportionately direct impact based on the amount of time 
that someone's put into growing it.
    Remember, they make about one one-hundredth of what the 
trafficker is going to make on that crop. They may not make as 
much by growing the wheat or the barley or the corn, but right 
now that 92 percent that's out there that's grown is really not 
the direct result of alternative development programs. It has 
to do with the fact that the risks and costs for those people 
of growing something that's illegal and has all these bad, 
negative effects downstream are higher than the incentives that 
come with a stable, non-criminal feed your family crop in a 
different area.
    So what we want to get to better agreement on, and you're 
putting the burden on me, and I understand that, and it is 
true, we need to get to full agreement that we are not going to 
be stutter stepping in this. We are absolutely dedicated, both 
we the United States and Great Britain.
    Mr. Souder. In Colombia, we see when we do eradication, we 
look at it from the air, we monitor from the ground on a 
regular basis, and we're told that with X number of reduction. 
Are they monitoring this? Will we be able to see next week or 
the week after whether in fact it's being eradicated?
    Mr. Charles. In theory, we should be able to see that. In 
fact, I do not know of any monitoring that's in place.
    Mr. Souder. So we could be looking at a situation like 
happened a few years ago under the Taliban where we saw this 
huge surge and then in fact a drop the following year merely 
because so much hit the market that they don't grow it the next 
year, because the market is saturated. And this surge could 
come at the very time when it's under ours and Britain's watch.
    Mr. Charles. Let me clarify. We will have certain national 
technical means and other means by which we will measure the 
total cultivation in the succeeding year. Frankly, what you're 
seeing is----
    Mr. Souder. Once the people on the street are dying of 
heroin and buying the heroin, we'll know that we've had a big 
increase.
    Mr. Charles. Yes, sir, that would be one way to know. And 
the other way----
    Mr. Souder. Will we know, when it's time to cut it down, 
will we know whether there's a big increase?
    Mr. Charles. And that's what I was responding to. I do not 
know at this point of a Phase I metric saying that this is the 
large number. I think we have to be looking country-wide at 
about 35,000 hectares, if we're going to be serious about this. 
And I think we need to actually get down at least 25,000 
hectares. And I think more than half of that has to occur 
probably in these two provinces we're talking about in Phase I 
in which the British are in support of the provincial 
governments, which we have to work with again and bring aboard 
and bring along.
    But the bottom line is, I do not know of any, if you're 
asking me if I know of a monitoring mechanism for identifying 
how much, do I know that there has been a monitoring mechanism 
agreed by which we will measure how much the British support 
efforts in the south right now will be eradicating, or what the 
metrics are, no, I do not know of that. But if you're asking 
the larger question, which is will we know later this year by 
technical means with a high degree of certainty both through 
the U.N. and through our own Government what the actual crops 
are, yes, we will know that. And of course, as you indicate, we 
will also know it because if the heroin in the global economy, 
the global heroin economy is increased we will see that, 
because we will probably see prices fall further and all the 
other----
    Mr. Souder. So we'll know how much is planted and some 
measure of indication of how much was bought on the street by 
price-supply. But we won't know how much was harvested.
    Mr. Charles. No, I want to be clear again. For the phase II 
U.S. part----
    Mr. Souder. Yes, and when you say phase II, that's the 
United States.
    Mr. Charles. We will track the amount that's harvested. We 
are actually contracting to do that right now.
    Mr. Souder. But you don't know whether the British----
    Mr. Charles. I do not know.
    Mr. Souder. Let me ask one other round of questions. The 
British Government officials in the region have told our staff 
that attacking static targets like the opium warehouses and 
processing plants, in other words, if these flowering poppies 
are harvested and they go to market, we've failed at round one. 
Now we're going to round two.
    They're arguing that the opium warehouses and processing 
plants right now would have an enormous impact on destructing 
the drug trade in and around Afghanistan. How many warehouses, 
laboratories and other stationary drug targets have been 
destroyed? Do you have any idea?
    Mr. Charles. I would say it is in the double digits, but it 
is not in the triple digits, based on what I know. Clearly this 
is a choke point, and we must--and when I say we, I don't mean 
just the British or just the Afghans, I mean we the United 
States as well, we have to be very aggressive at tackling both 
the warehouses and the laboratories.
    There was one very significant destruction that occurred, 
and when I say double digit I'm referring to both laboratories 
and warehouses, there was one very significant destruction of a 
warehouse that occurred in January. The effect that one 
destruction had sent a shock wave, a shiver throughout the 
entire affected economy. And frankly, it said very clearly that 
if you send a signal on eradication and you send a signal in 
interdiction that drugs will not be tolerated, that this is a 
criminal act and it will be both prosecuted and destroyed, you 
will have a very direct effect.
    And why? You'll have a direct effect more there than almost 
anywhere in the world, because it has not been 
institutionalized, because there are other strong factors that 
will support the idea of a non-drug economy. There is nothing 
inevitable, nothing inevitable about the Afghan economy being 
dependent upon heroin, nor the Afghan people. I think any 
democracy that's going to survive, and it will, and it is 
making enormous progress in this direction, has to recognize 
that, and we have to recognize that in support of them we have 
to get the drugs out of their economy in a significant way.
    I think the point is, if we stay on the course we're at, 
where we're doing both strong interdiction, for which the 
British deserve enormous credit, but we also do strong 
eradication, and we don't let the horses get out of the corral 
in the first place before we go try to hunt them down, we've 
got to bring them back in again, we've got to make sure that we 
stop the heroin from actually being produced at the farm gate 
and then we have to go after the places where it does get out 
and we have to be very effective about it. And we can be very 
effective about it.
    Mr. Souder. How do you request assistance or assets from 
the Department of Defense, and do you usually get what you ask 
for, and how about when you seek it from the British?
    Mr. Charles. I think with respect to the coordination and 
cooperation with our Department of Defense, there are really 
two aspects. One is information sharing. I was in Kabul about a 
month or a little more than that now ago, and one of the points 
I made there is that we need to do a good job, a better job of 
sharing with each other, if you're hunting terrorists and you 
find drugs, you need to share that information with the people, 
like the DEA and others who are going to go out and tackle the 
drug issue. If we're hunting drugs and we find information in 
other ways, where the Afghan government does and we're working 
with them, then we need to share that mutually so we can make 
maximum use of it, and maybe it's also feeding terrorists. And 
we need to tackle that.
    So information sharing is a big one. And by and large, I 
think that relationship is a good one and it's getting better.
    The second piece of course that I think can be very 
valuable, our programs are multi-faceted. We support, this 
Bureau supports the training of the police, it supports many of 
the things happening in the field in the judicial sector, we're 
actually building courthouses, training judges, training 
prosecutors, helping the Afghan government to get institutional 
support capacities, to be able to do the things it needs to be 
able to do to bring people to justice. And of course we do the 
eradication piece and a lot of the counternarcotics support.
    But at the same time, I think that, I do think that 
probably one of the things that has to happen is that we have 
to be better at getting at the interdiction side, and frankly, 
this piece of guidance that just came out is something that I 
myself have been looking for for quite a while, and I know you 
had put great pressure on all of us to find this. I find it 
redeeming, it really does say that drugs are found, they will 
be destroyed, and I haven't studied it in any great depth. I 
know that there is----
    Mr. Souder. Let me ask you a question about this, because 
we have a hearing come up that's been delayed, but it will be 
in April with the Department of Defense, and like you say, I'm 
really happy to see some of the clarifications. It's a little 
disturbing that some of these things weren't done, for example, 
the discovery of drugs and drug paraphernalia by coalition 
forces has resulted in a need to clarify procedures. Now in the 
clarification they're saying if they find drugs and drug 
paraphernalia they should seize it, if I basically understand 
the document to say. It also says that by seizing drugs and 
drug paraphernalia, on the last page, during the course of 
normal operations, that doesn't mean that they're now on a drug 
mission or a law enforcement mission, they're still in the 
military.
    But then it says, it says also they will report any 
quantity of drugs or drug paraphernalia found during normal 
operations. Which means no special operations, basically, and 
then confiscate and destroy the drugs and drug paraphernalia. 
Which is good news, it makes you wonder what the position was 
before the order. Then it says this authority does not extend 
to the destruction of poppies in fields or unprocessed poppies. 
It also through silence doesn't suggest if it's not discovered 
in the course of normal operations, in other words, there won't 
be special operations.
    Does that mean that they won't help you when you request? 
Does that mean that they're undergoing, if they see a lab but 
it's not in the course of normal operations, they won't hit it? 
Do they then tell you in your agency?
    Mr. Charles. Those are good questions, sir, and the 
document does say what you say it says. I think that we will 
have to see how this plays out.
    I guess I can make two observations. One, I look at the 
date-time group on it, and I notice that it was promulgated by 
this command, by JTF, I'm sorry, CJTF 180 in Afghanistan on 
January 31, 2004. So apparently it's been out there, that's 
good to know. So maybe there are some documents and facts out 
there already to be found.
    Second, I have had no moment at which we have a 
disagreement in any way between the Department of State and the 
Department of Defense on this issue, except to the extent that 
I think going forward the problem gets bigger. We have to be 
able to both prioritize counternarcotics, not in place of 
counterterrorism in any way. Counterterrorism is essential. And 
it is the priority.
    But we also have to recognize, as President Karzai said, 
that the fight against drugs is actually the fight for 
Afghanistan, that if you win the battle today but you lose the 
war, it's not going to do you any good. If you right the 
sailboat and we're all content that we've gotten the democracy 
piece right but we're heading over a waterfall, we're in bad 
shape.
    So we have to be able to go directly to both of these 
problems, coordinate well within the U.S. Government, which I 
think we are doing, and this is to me great evidence of the 
fact that it has been raised as a priority, perhaps by your 
leadership. But it certainly is out there, and it is making, 
it's going to make, I have no doubt it will make a difference. 
Then we have to coordinate well with our allies, which we are 
increasingly doing and frankly, we are doing well on almost 
every other category than the couple of rough spots we've 
discussed today.
    Mr. Souder. But you haven't received any calls from the 
Department of Defense or British coalition forces saying, it's 
not in our area but we know from our intelligence that there's 
a drug lab over here, there's a stockpile over here, we can't 
hit it, can you do something?
    Mr. Charles. I would have to consult with people in the 
field to know whether a call like that had come in.
    Mr. Souder. Must not be very regular.
    Mr. Charles. Well, I will tell you, again, I just got this 
frag today, this morning. So I will have to go back now and 
find out, maybe the next time I testify you can ask me whether 
we've gotten progress in greater and greater coordination.
    Mr. Souder. I will ask you in writing for this thing and 
try to get that out.
    Mr. Charles. Certainly.
    Mr. Souder. Because as we get into our followup hearings, 
one of the questions is what is the coordination. We've been 
arguing the Department of Defense needs to see this as not the 
primary but part of their mission there. If it isn't part of 
their mission, then at least they should have the transfer of 
information.
    Let me just say, on the ground, having been there, I know 
they're getting the information. The question is, what do they 
do with it. I saw it with my own eyes.
    Mr. Charles. Yes.
    Mr. Souder. So without getting into any specifics with it, 
I know the information is there because of the way they're 
doing their things in Afghanistan.
    Mr. Charles. Right.
    Mr. Souder. So the question is, how does that information 
get transferred, and if they're not going to take action, how 
do we turn it over to other departments as we up the DEA 
presence there, as you have the law enforcement and narcotics 
eradication and alternative development in force. But whose 
responsibility is this, because the American people aren't 
pouring billions of dollars into Afghanistan to watch it turn 
into the heroin poppy nation of the world and an undemocratic, 
narcoterrorist controlled state. That's not why we went there. 
That's not why people in my district, who are there right now 
risking their lives along the border, getting shot at, are 
there fighting so that it can become a narcostate.
    Mr. Charles. I could not agree with you more, and I take on 
full responsibility for the counternarcotics piece that the 
Department of State is responsible for in that country, and I 
do reach out to my DOD colleagues and I have had good response 
in general. I find great hope in this document, because I think 
it suggests that whoever is sending the message, it's being 
received that we have a dual mission and it is terribly 
important, and as the Department of Defense migrates naturally 
from being war fighters and just tacklers of terrorists, at the 
same time there is going to be a counternarcotics component and 
it's going to grow and we're going to see goodness out of that.
    I will say that when I was in Kabul, either shortly before 
or shortly after you were, I will say that I did ask the 
question, had this gotten to the field yet, and at that time, 
the Marines I spoke to said they were more than willing to 
destroy drugs, but that the guidance had not actually arrived 
at that point. I now think based on what I'm reading here that 
it's there, and I think what that says to me is that on this 
topic, with respect to U.S. coordination among ourselves, this 
is a very good thing. I think we're headed in the right 
direction and I think the Department of State and Department of 
Defense will work well together.
    Mr. Souder. Well, thank you for coming to this hearing 
today. I appreciate the time you took, and on short term 
notice. It's very important that our allies in Britain move 
aggressively. I strongly support alternative development 
efforts. We know that there's going to be huge challenges. Most 
of the people are following the law, all the people need to 
follow the law, raise legitimate products.
    But the bottom line is, while we feel empathy to very poor 
people in many parts of the world, we cannot allow heroin and 
cocaine to come into the world markets that destroys families 
all over the world and eventually will come back and destroy, 
if not sooner, it will later destroy the countries that are 
producing it. We've seen this in Colombia, we saw how it 
corrupted their system, how judges were killed, how mayors are 
still killed and how President Arribe and Estran and others 
before him had to fight and we're still pouring billions of 
dollars into Colombia to try to make sure it gets stabilized.
    We know President Karzai is committed to democracy, to 
reform in Afghanistan. The country is struggling. We cannot, as 
the coalition forces there, forget the long term, because we're 
struggling so hard and so importantly in the short term.
    Thank you for your leadership with this, and we look 
forward to continuing to work with you.
    Mr. Charles. Thank God for your leadership, sir. Thank you.
    Mr. Souder. The subcommittee hearing stands adjourned.
    [Whereupon, at 12:54 p.m., the subcommittee was recessed, 
to reconvene at 2:30 p.m. the same day.]

                                 <all>

</pre></body></html>
